OFFICE OF THE ATTORNEY GENERAL
Tampa Criminal Appeals

C. SUZANNE BECHARD
Chief-Assistant Attorney General
Bureau Chief Tampa Criminal Appeals
Concourse Center 4

3507 E. Frontage Road, Suite 200

Tampa, Florida 33607-7013

 

ASHLEY MOODY Telephone (813) 287-7900, Suncom 585-7900
ATTORNEY GENERAL Fax (813) 281-5500, Suncom 514-4340

STATE OF FLORIDA CarlaSuzanne.Bechard@myfloridalegal.com

 

September 14, 2020

Honorable Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.

Washington, DC 20543

RE: CASE NAME: Johnnie Lee Jordan. Jr. v. Secretary, Florida Department of

Corrections
Case No, 20-5354

WAIVER

Dear Mr. Harris:

Respondent, State of Florida, does not intend to file a response to the petition in the above
captioned case, unless requested so to do by the Court. This is not a case in which the death
penalty has been imposed.

Please enter my appearance as Counsel of Record for all respondents in this case.
Sincerely,

ASHLEY MOODY
ATTORNEY GENERAL

C, Suzanne Bechard
Chief - Assistant Attorney General
Bureau Chief, Tampa Criminal Appeals

/ge

ce: Johnnie Lee Jordan, #116938, Cross Correctional Institution
568 N.E. 255" Street, Cross City, FL 32628
